WAIVER
SUPREME COURT OF THE UNITED STATES
Supreme Court Case No. 20-6629

Jane Doe

v.

Ben Carson, et al.

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check one of the following boxes:
□ Please enter my appearance as Counsel of Record for all respondents.
□
✔ There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

Gary Heidel, Acting Executive Director, Michigan State Housing Development Authority

I certify that I am a member of the Bar of the Supreme Court of the United States (Please explain if
your name has changed since your admission):
Signature
Date:

1/7/2021

(Type or print) Name

Firm

Fadwa A. Hammoud, Solicitor General
□ Mr.
□ Ms.
□ Mrs.
□ Miss
✔

Michigan Department of Attorney General

Address

Post Office Box 30212

City & State Lansing, Michigan
Phone

Zip

48909

(517) 335-7628

A COPY OF THIS FORM MUST BE SENT TO PETITIONER’S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
SEE REVERSE FOR INFORMATION CONCERNING THE STATUS OF A CASE ON THE
DOCKET.

Jane Doe, P.O. Box 2893, Denver, CO 80201
Jeffrey B. Wall, Acting Solicitor General, United States Department of Justice,
950 Pennsylvania Ave, NW Washington, DC 20530-0001

CC:

